ik

 

WAIVER

Supreme Court of the United States

No. 20-6211
Michael Anthony Robbins v. California
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:

 

Pleasé eriter-my appearance as Counsel of Record forall respondents:

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

hi am a member of the Bar of the Supreme Court of the United States.

GO Tamnot presently a member of the Bar of this Court. Should a response be requested,

the response, be filed by ao
Signature _! .

Date: WA

aa Mathew Feiedman

JAMr. OMs, O Mrs, O Miss

Frm tase o © Californie , O£Fice of Pxttotae~ Gener~|

- Address _©0 © Wes} Brand ves Svik_ |4$0"

City & State Dan Wieanra, ¢ tip 1210 \

Phone _© | 9 - TAG US) 1

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED. |

Ce: Matthew A. Sirgen

(Type or print) Name.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
